                                        AUDIT




 GOVTRIP USE AND MONITORING BY
 THE U.S. DEPARTMENT OF THE
 INTERIOR—
 BUREAU OF RECLAMATION




Report No.: WR-IN-BOR-0004-2013   September 2013
                       OFFICE OF
                       INSPECTOR GENERAL
                       U.S.DEPARTMENT OF THE INTERIOR


Memorandum                                                                                SEP ·0 9 2013
To:                  Michael L. Connor
                     Commissioner, Bureau of Reclamation

From:                Kimberly Elmore ~ku...J~u- ~
                     Assistant Inspector Gener~ f~~ Audits, Inspections, and Evaluations

Subject:             Final Audit Report- GovTrip Use and Monitoring by the U.S. Department of the
                     Interior - Bureau of Reclamation
                     Report No. WR-IN-BOR-0004-2013

       The U.S. Department of the Interior (DOl) spends approximately $250 million a year
through GovTrip on travel, with the Bureau of Reclamation (USBR) accounting for about $20
million of these funds .

        This report is part of our DOl-wide audit of GovTrip and related travel processes and
procedures. Although the contract for a new system is scheduled to replace GovTrip in
November 2013, we found several significant issues specific to USBR that warrant your
attention under the current GovTrip travel system. We plan to issue an audit report to the
Department that will focus on DOl's planned acquisition and use of a new travel management
system.

        We initiated an audit of DOl's GovTrip use and monitoring based on limitations in
GovTrip that we discovered during a prior evaluation, including DOl's and its bureaus' inability
to freely access travel system reports from GovTrip and the uncertainty of the reliability of the
data in those reports. 1 We determined that the risks presented by these limitations were
significant enough to warrant further review.

        The objective of our audit was to assess DOl's implementation, use, and monitoring of
GovTrip as a part of the overall travel system. Specifically, we assessed DOl's ability to
reconcile its various systems to determine whether data and dollars spent are fair and accurate.
The audit scope encompassed fiscal years 2009 and 201 0 and included testing of more than 700
travel vouchers and 300 charge card statements across DOl's bureaus. We also interviewed more
than 100 DOl and bureau personnel involved in the travel process, including approving officials,
intermediate reviewers, and bureau travel leads.

        We conducted this audit in accordance with Generally Accepted Government Auditing
Standards. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our

1 "U.S.   Department ofthe Interior's Video Teleconferencing Usage," WR-EV-MOA-0004-2010. December 2011.
findings and conclusions based on our audit objective. We are attaching further detail as to the
objective, scope, methodology, and testing performed during this audit (see Attachment 1).

Background

        Since August 2007, DOI has used GovTrip under a task order from the General Services
Administration’s (GSA) master contract with Northrop Grumman for E-Gov Travel Services
(ETS). GSA’s master contract establishes GovTrip’s general requirements, and DOI’s task order
lays out other specific requirements. GSA’s master contract is set to expire in November 2013, at
which time DOI expects a new system to take the place of GovTrip under a new GSA contract
(ETS-2).

        GSA has selected a single vendor for ETS-2, though the system implementation process
is behind schedule. The bid process was initially delayed by legal challenges from one of the
bidding companies, and a current protest of the award is delaying the process even further. ETS-
2’s general requirements include more internal control points and reporting capabilities, but
much about ETS-2’s specific requirements and controls is still unknown. The unknown and
untested components of the new contract and travel system present both an opportunity and a
responsibility to assess how well USBR uses the current system and to determine ways in which
it can improve prior to the transition to ETS-2.

        Both GovTrip and the pending ETS-2 system have the Federal Travel Regulation (FTR)
as part of their foundation, which provides the regulatory framework for the approval,
processing, and payment of travel costs within the Federal Government. The GovTrip system has
worked in concert with these regulations to facilitate travel planning and payment, as will the
pending ETS-2.

Issues Found During Travel Voucher Testing

       We randomly selected 92 USBR vouchers and their related authorizations from fiscal
years 2009 and 2010. The total amount paid from these vouchers was about $111,000, which
included almost $50,000 paid directly to travelers. We found the following areas of concern:

Missing Documentation and Errors in Expenses

         The FTR requires that receipts be provided for all expenses greater than $75, as well as
all receipts for lodging expenses, regardless of dollar amount (FTR § 301-52.4). We found nine
vouchers that did not have the required supporting documentation for all travel expenses, all for
lodging or airfare charges, often the two highest value expenses on vouchers. For example, one
trip included the cost of a temporary apartment rental as lodging. No documentation, however,
was provided supporting the cost of the lodging. The total trip cost was almost $6,000, and the
traveler was reimbursed for almost $5,000.

         We also found 14 vouchers that either did not include all of the expenses that were listed
in the travelers’ receipts or the amounts shown on the receipts did not match those claimed on
the voucher. For example, 6 of the 14 vouchers had receipts attached that showed lodging costs



                                                                                                      1
different than what was claimed in the voucher, including 1 where the hotel receipt listed a
different traveler’s name than who was filing the voucher. Another voucher included no airfare
charges, even though airfare charges were listed on the authorization and receipts were attached
to the voucher. Four other vouchers included receipts for expenses, such as hotel and rental car,
that were not claimed in the voucher.

        In addition, we found a traveler who opted to fly into an airport that was over 250 miles
from the traveler’s temporary duty station (TDY) without any justification or documented
authorization. Three vouchers showed the traveler filing for and receiving reimbursement for
lodging charges that are required to be paid for with a Government charge card unless an
exemption has been issued (DOI Integrated Charge Card Program Policy Manual § 2.3). Two of
these vouchers were processed allowing the reimbursable lodging even though no hotel receipts
were attached to the voucher. For one of these vouchers, the trip purpose description stated that it
was an “approved trip home,” but the traveler was still reimbursed for lodging costs without any
explanation as to why the traveler would require external lodging accommodations when the
traveler was home. We also found a voucher for a trip that appeared to have been canceled, but
when we tried to verify, we could not find any associated documentation or receipts to prove it
had been canceled.

        FTR § 301-50.3 and § 301-50.5 require that the approved electronic travel system,
GovTrip, be used to book all travel arrangements unless an exception has been granted, and that
if such an exception has not been granted, the traveler is liable for any extra costs and may be
subject to disciplinary action. One traveler claimed the cost for a rental car booked outside
GovTrip but included no supporting justification as to why this action was taken or what
approval was given to do so. Without additional detail, it is impossible to tell if the Government
was protected under a Government rental agreement or if the price paid was appropriate.

         In all of these examples, travelers and associated approving officials requested or
approved travel documents with inappropriate travel allowances or failed to document the
justification for variances from normal or reasonable travel allowances. Whenever travelers
request approval for travel plans, the plans must meet the FTR requirements. Further, when
submitting vouchers for travel, travelers are required to abide by the FTR rules and approvers
must affirm that the vouchers they are approving meet these requirements. In each of these
examples, neither the traveler nor the approver met these requirements of due diligence.

Incidents of Overpaid or Improper Per Diem

         Our testing revealed that a USBR employee was reimbursed in excess of allowable per
diem without supporting justification. We found that the employee was able to make weekly
trips to and from the same TDY for 18 months without the required reduction in per diem to 55
percent (Financial Administration Memorandum Number 94-037 II.G.1) by creating individual
authorizations and vouchers for each weekly trip and may have been overpaid by as much as
$10,000. We since were informed that this travel continued and that other USBR employees may
also be avoiding reductions in per diem for long-term travel in a similar manner. Not only does
this improperly avoid the required per diem reductions, but if no legitimate justification can be
provided for this travel irregularity, then Internal Revenue Service Income Tax Reimbursement



                                                                                                     2
Allowance requirements may also have been violated for any travel exceeding 1 year (DOI
Travel Policy § 301-11.4).

        In another voucher, we found Student Career Experience Program (SCEP) interns
receiving per diem allowances while at their permanent duty stations. At the same time one
intern was receiving this improper per diem allowance, the intern also was allowed to collect
reimbursement for expenses while on TDY status. The other intern was able to file a voucher
claiming per diem twice, both as a per diem entitlement and as a miscellaneous expense. The
voucher totaled over $460 and the intern was reimbursed almost $450.

Authorizations Created After Trip Date

        Of the 92 authorizations selected for testing, 21 authorizations were created or approved
after the trip departure date. Although the FTR does permit this practice, FTR § 301-2.1 states:

       …Generally you must have written or electronic authorization prior to incurring
       any travel expense. If it is not practicable or possible to obtain such authorization
       prior to travel, your agency may approve a specific authorization for
       reimbursement of travel expenses after travel is completed.

         Of the authorizations tested, 23 percent failed to meet the general authorization
requirement and there is no evidence that they met the “not practicable or possible” standard
stated above for the exemption. Further, the practice of creating or approving an authorization
after trip departure could contribute to an internal control breakdown if approvers feel pressured
to authorize already incurred travel expenses due to the financial impacts that would otherwise
fall to the employee who would be responsible for all travel costs.

Auto-Approval

         GovTrip includes features that allow travel authorizations to be created without
managerial review or approval. Autobooking is one approach that allows travelers to arrange
travel without supervisory approval. Another approach is T-entering, a method by which an
arranger makes travel arrangements, creates travel documents, and signs the documents on behalf
of the traveler. Both features result in travel that has been created and booked without the benefit
of managerial or traveler review and approval.

        We found 38 authorizations that used one of GovTrip’s auto-approval features. Of the 38
auto-approved authorizations, 35 did not have a hand-signed paper authorization attached to the
voucher as required by DOI travel policy (E-Gov Travel FAQs). Auto-approval was developed
when all travel arrangements used a paper-based system and was intended to streamline travel
arrangements for routine mission travel and for cases of emergency travel. Because travelers now
arrange travel electronically, and supervisors approve it electronically, the need for auto-
approval is greatly limited. We found in our interviews with travel supervisors, however, that
many employees are still authorized to use auto-approval for all travel, even though much of it is
routine and known about weeks or months in advance. Because employees are authorized to
auto-approve their own travel, the internal control safeguard inherent in obtaining supervisory



                                                                                                     3
approval for the use of staff time and travel funds before the trip begins is being circumvented,
increasing the potential for fraud, waste, or mismanagement to go undetected.

Mode of Transportation Not Documented

        Of the 92 vouchers selected for testing, 13 did not indicate the mode of transportation
used to travel to the TDY location. Based on the proximity of the TDY location to the traveler’s
duty station or the lack of personally-owned vehicle (POV) mileage claimed, these travelers
likely used a Government-owned vehicle (GOV), a POV, or traveled with another person. This
missing information results in data that are unreliable for determining the true cost of travel and
the frequency or validity of GOV use for fleet management purposes. In addition, supervisors
cannot make a determination whether the mode of transportation for travel is advantageous to the
Government.

Issues Found During Charge Card Statement Testing

        During our audit of the travel process, we learned that the only internal control
mechanism used to ensure the validity of travel charges was the required supervisory review of
charge card statements. When supervisors do not adhere to this internal control, it increases the
risk of management not detecting incorrect or improper charges since there are no other
procedures in place to ensure that supervisors are adequately reviewing and approving both
travel vouchers and charge card statements. Our tests of charge card statements covered only a
fraction of all USBR travel card statements. Unfortunately, in our selection of 50 charge card
statements across several USBR office locations, we found lax supervisory reviews that
presented significant internal control risk:

Missing Signatures

       Three of the 50 statements tested, 6 percent, did not have the required signatures of both
the supervisor and traveler. DOI policy requires supervisors to review statements and include the
signatures of both the supervisor and the traveler on the statement to show that all charges have
been verified as appropriate and allowable travel expenditures (DOI Integrated Charge Card
Program Policy Manual § 2.9.3).

Unexplained Transactions

        Of the 50 statements tested, we found 12 statements with expenses that were not reported
in GovTrip or did not match the expenses reported in GovTrip. 2 For example, 10 of the
statements listed charges for hotels or rental cars that did not match what the traveler claimed in
the voucher. Even though the discrepancies on these statements were relatively small in
monetary value, the fact that these issues are present indicates that supervisors are not adequately
verifying travel charges or ensuring the appropriateness of the expenditures.

        With almost 25 percent of statements in our sample reflecting some sort of discrepancy,
this issue is both a significant internal control weakness and breakdown, not only because it
2
    Due to restricted data access issues, we are unable to provide the total monetary impact of these discrepancies.


                                                                                                                       4
results in inaccurate accounting and an inability to rely on GovTrip-generated reports for
effective management, but because it is impossible for supervisors to reconcile expenses on card
holder’s statements with GovTrip vouchers to verify that those expenses were related to an
approved trip. DOI Integrated Charge Card Program Policy Manual § 2.9.2 states that travelers
are required to “[i]nclude a concise, detailed description for each line item…or attach the travel
voucher” on their charge card statements to ensure that all transactions are legitimate. All of
these questioned expenses appeared on charge card statements with the signatures of both the
traveler and the supervisor, which demonstrates that supervisors are not adequately verifying that
the travel charges are legitimate, further reducing the intended effectiveness of this key internal
control.

Conclusion and Recommendations

       ETS-2 implementation is scheduled to begin in a few months and USBR has an
opportunity to improve travel management practices while still under the current GovTrip system
and through the transition. Improving internal controls now will help strengthen overall travel
management controls when USBR fully transitions to the new travel system.

   1. USBR should require supervisors to—

           a. verify that vouchers contain supporting documentation as required by the FTR
              and accurately reflect costs incurred during travel;
           b. verify that vouchers contain adequate justification for per diem claims, or reduce
              per diem for travel over 30 days, in accordance with applicable travel regulations
              and policies;
           c. ensure travel authorizations are created and approved prior to travel with the only
              exception being bona fide emergency travel;
           d. verify that use of a POV is advantageous to the Government and clearly justified
              in the travel authorization;
           e. ensure that use of a GOV is consistently documented in the travel authorization
              and voucher;
           f. verify and approve all charges on charge card statements; and
           g. ensure that both the traveler and supervisor sign and date charge card statements.

       Agency Response: In its June 25, 2013 response, USBR did not concur and stated that it
       believed that the majority of the exceptions we identified were inaccurate and the number
       of exceptions that were accurate did not justify the broad scope of Recommendation 1.
       Further, USBR noted that it has an existing policy to reconcile travel vouchers with
       traveler’s charge card statements. USBR did not identify any actions to be taken to
       address the recommendation (see Attachment 2).
       OIG Reply: USBR stated that all 38 of the auto-approval exceptions mentioned in the
       report properly had unlimited or limited open travel authorizations. The report, however,
       did not state that the 38 travelers were not approved for travel under these blanket
       authorizations, but that these approvals were not documented in GovTrip, the official
       travel system. The report identified that 35 vouchers did not include the signed
       authorization as required by DOI policy. Our report lists the high percentage of the



                                                                                                 5
       authorizations tested that used this outdated method of blanket authorizations and
       suggests that this tool is no longer necessary in the age of electronic travel arranging.
       This also calls into question the level of management oversight over USBR travel.

       The additional information that USBR provided to support its response did not change
       the results of our audit. We consider Recommendation 1 unresolved.

   2. USBR should make changes to correct existing deficiencies, including—

           a. creating and implementing policy limiting the use of auto-approval by employees
              to legitimate emergency travel; and
           b. creating and implementing policy requiring supervisors to reconcile charge card
              statements with travel vouchers.

       Agency Response: In its response, USBR did not concur with our recommendation and
       stated that it believed that the majority of the exceptions identified in the report were
       inaccurate. Further, USBR noted that it has an existing policy to reconcile travel vouchers
       with traveler’s charge card statements. USBR did not identify any actions to be taken to
       address the recommendation (see Attachment 2).

       OIG Reply: The additional information that USBR provided to support its response did
       not change the results of our audit. Regarding the USBR policy to reconcile charge card
       statements to vouchers, our analysis revealed that this policy is not being adequately
       followed. We consider Recommendation 2 unresolved.

        Overall, USBR’s response neither addressed nor provided specific actions to correct the
identified deficiencies. We request that USBR reconsider our recommendations and provide a
response within 30 days, as specified in Attachment 3.

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

If you have any questions or need more specific information about this report’s findings, please
contact me at 202-208-5592 or Michael P. Colombo, Western Regional Manager, at 916-978-
5653.

Attachments (3)




                                                                                                   6
                                                                                      Attachment 1


Objective, Scope, and Methodology

        We conducted this performance audit from November 2010 through April 2012 in
accordance with Generally Accepted Government Auditing Standards. These standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

        We also determined whether USBR had designed and implemented a system of internal
controls or travel management controls to provide reasonable assurance that travel vouchers were
accurate and supported; per diem payments were appropriate and allowable; authorizations were
created and approved prior to travel; and charge card statements were verified, approved, and
signed by the traveler and supervisor. We found weaknesses in USBR’s travel management
controls. These weaknesses and recommended corrective actions are discussed in this report and
if implemented, the recommendations should improve USBR’s travel management controls.

Objective

        Our objective was to assess DOI’s implementation, use, and monitoring of GovTrip as a
part of the overall travel system. Specifically, we evaluated DOI’s ability to reconcile its various
systems to determine whether data and dollars spent are fair and accurate. We also performed
testing to ensure that any existing internal controls were sufficient to reasonably minimize risk of
fraud and errors.

Scope

        This was a DOI-wide audit of GovTrip and the related travel system. Our testing included
travel vouchers with travel departures starting in fiscal years 2009 and 2010 along with charge
card statements related to those travel vouchers. In conducting our audit, we visited USBR
offices in —

   •    Albuquerque, NM;
   •    Denver, CO; and
   •    Sacramento, CA.

        Our review of the system included both a performance audit of the current ETS contract
(GovTrip, with a contract period from August 2007 to November 2013) and a review of the
future ETS-2 contract language (contract implementation planned for November 2013). We also
assessed DOI’s integrated charge card program as it relates to travel expenditures.

        During the performance of our audit testing, delays in obtaining access to information
and concerns related to timely reporting necessitated a reduction in the sample size and testing of
both vouchers and charge card statements. We took steps, however, to allocate the reduction in
testing across bureaus, preserving the integrity of our random and judgmental voucher and
charge card statement samples.


                                                                                                   1
                                                                                      Attachment 1



Methodology

         The GovTrip contractor, Northrop Grumman, pulled the voucher testing data from
archived databases, as we were informed that this would be the most accurate and complete way
to establish the voucher universe by bureau and agency. From this universe, vouchers were
statistically sampled using a stratified methodology, and the associated authorizations were also
examined. Once the testing sample was selected, we performed testing of travel vouchers and
authorizations using the live GovTrip environment. Use of the live GovTrip system environment
for document examination was required since the travel program has no “read only” audit feature
and no alternative data repository is available to DOI.

       Given that our testing was limited to the live data environment, we were not able to
perform “through the system” testing of the software. Thus, we did not perform tests of the
GovTrip system and software itself. Rather, we structured interview questions of key DOI
personnel to ascertain the security of the system and the viability of the input data.

        The National Business Center, Charge Card Support Center (NBC) provided us with the
charge card data. NBC extracted the charge card data from PaymentNet, DOI’s gateway to
integrated charge card program data, which is operated by the contractor JPMorgan Chase. We
did not perform a reliability assessment or any system tests for this data since, like GovTrip, this
is a contractor-developed system, so our testing was limited to structured interview questions of
key DOI personnel to ascertain the security of the system and the viability of the input data.
Once the testing sample was selected, we performed tests in the field to ascertain the accuracy
and reliability of reconciliation efforts between the GovTrip voucher and related charge card
transactions.

Use of Computer-Processed Data

        We used the GovTrip and Integrated Charge Card databases to identify travel vouchers
and charge card transactions for travel departures starting in fiscal years 2009 and 2010. We did
not perform reliability assessments of the quality of the data because this was outside the scope
of our review. Data from these systems were used for document and transaction selection, and
then reviewed using the electronic and hardcopy records available through DOI. Therefore, the
computer-processed data did not affect the performance of our audit steps.




                                                                                                    2
                         United States Department of the Interior                         Attachment 2

                                        BUREAU OF RECLAMATION
                                           Washington, DC 20240

IN REPLY REFER TO:


  84-27400
  ADM-8.00



                                             MEMORANDUM

  To:           Office of Inspector General
                 Attn: Assistant Inspector General for Audits, Inspections, and Evaluations

  Through: Anne J. Castle        IZ..__ 0 ~              JUN 2 5 Z013
           Assistant Secreta'cy-_=- v¢rer and Science

  From:,
           f-~ichael L. Connor
              Commissioner .
                                          dJ~JUN
                                      ~h>tt' -                      2 1 2013

  Subject: The Bureau of Reclamation's Response to the Office oflnspector General's (OIG)
           Draft Audit Report, GovTrip Use and Monitoring by the US. Department of the
           Interior- Bureau ofReclamation, Report No. WR-IN-BOR-0004-2013

  The OIG in its May 1, 2013, draft audit report, GovTrip Use and Monitoring by the US.
  Department of the Interior - Bureau of Reclamation, requested that Reclamation inform the OIG
  of actions taken or planned to address the recommendations, as well as target dates and titles of
  the officials responsible for implementation.

  The samples used in the development of the subject draft audit report for both travel vouchers
  and charge cards were from fiscal years 2009 and 2010. Reclamation reviewed the exceptions
  noted by the OIG in the audit report and found that many of the exceptions noted were incorrect.
  For example, 38 of the 38 exceptions noted for auto approval were incorrect because they were
  correctly approved by management prior to any travel arrangements being made. Refer to the
  attached information for specific details. While some of the exceptions noted by the OIG were
  accurate, the limited numbers of valid exceptions compared with the larger numbers of
  inaccurate exceptions do not justify the broad scope of Recommendation 1.

   After November 2013, Reclamation will be using ETS-2 instead ofGovTrip in conjunction with
   our deployment of the Department's Financial and Business Management System. Reclamation
   is committed to continuing its pursuit of strengthening its travel management internal controls.

  If you have any questions or require additional information, please contact Elizabeth
  Cordova-Harrison, Director, Management Services Office, at 303-445-2783.

   Attachment

                                                                                                      1
                                                                                      Attachment 2
                                                                                       Attachment




                         The Bureau of Reclamation's Response to the
                     Office oflnspector General (OIG) Draft Audit Report
    GovTrip Use and Monitoring by the U.S. Department of the Interior· Bureau of Reclamation
                             Report No. WR-IN-BOR·0004-2013

                                             June 2013

General Comments:

The timeliness and quality of the draft audit report is a concern to Reclamation.

Recommendation 1: USBR should require supervisors to--

•    verify that vouchers contain supporting documentation as required by the FTR and accurately
     reflect costs incurred during travel;
•    verify that vouchers contain adequate justification for per diem claims, or reduce per diem
     for travel over 30 days, in accordance with applicable travel regulations and policies;
•    ensure travel authorizations are created and approved prior to travel with the only exception
     being bona fide emergency travel;
•    verify that use of a POV is advantageous to the Government and clearly justified in the travel
     authorization;
•    ensure that use of a GOV is consistently documented in the travel authorization and voucher;
•    verify and approve all charges on charge card statements; and
•    ensure that both the traveler and supervisor sign and date charge card statements.

         Reclamation's Response: Non-concur. Reclamation reviewed the exceptions noted by
         the OIG during the audit and believes that the majority of the exceptions identified were
         inaccurate as outlined in the attached. While some of the exceptions were accurate, the
         limited numbers of valid exceptions compared with the larger numbers of inaccurate
         exceptions do not justify the broad scope of Recommendation 1.

         Please note that Reclamation found the following number of exceptions identified in the
         OIG audit report to be incorrect in the following categories: Auto Approval (38 out of
         38); Overpaid/Improper Per Diem (3 out of 3); Errors in Expenses (8 out of 14) and
         Missing Documentation (2 out of 9).

         All38 ofthe Auto Approval exceptions identified in the audit have unlimited or limited
         open travel authorizations, approved by Reclamation management. Federal Travel
         Regulation (FTR) 300-3.1 allows an employee to travel for any official purpose without
         further authorization, if authorized under an approved Unlimited Open or Limited Open
         authorization.

                                                                                                     2
                                                                                    Attachment 2

       Reclamation adheres to the Federal Travel Regulation (FTR) promulgated by the General
       Services Administration (GSA). The FTR implements statutory requirements and
       Executive branch policies for travel by Federal civilian employees and others authorized
       to travel at Government expense.

       Reclamation has an existing Reclamation Manual Charge Card Policy that requires
       supervisors to reconcile charge card statements with travel vouchers (ADM 06-03 Charge
       Card Management).

Recommendation 2: USBR should make changes to correct existing deficiencies, including-

•   creating and implementing policy limiting the use of auto-approval by employees to
    legitimate emergency travel; and
•   creating and implementing policy requiring supervisors to reconcile charge card statements
    with travel vouchers.

       Reclamation's Response: Non-concur. Reclamation reviewed the exceptions noted by
       the OIG during the audit and believes that the majority of the exceptions identified were
       inaccurate as outlined in the attached.

       Reclamation adheres to the FTR promulgated by the GSA. The FTR implements
       statutory requirements and Executive branch policies for travel by Federal civilian
       employees and others authorized to travel at Government expense.

       Reclamation has an existing Reclamation Manual Charge Card Policy that requires
       supervisors to reconcile charge card statements with travel vouchers (ADM 06-03 Charge
       Card Management).




                                                                                                   3
                                                           Attachment 3


Status of Recommendations

    Recommendations          Status             Action Required
                                         Provide a response within 30
                                          days indicating concurrence
                                              or nonconcurrence. If
            1               Unresolved      concurrence is indicated,
                                           provide the target date and
                                         title of the official responsible
                                               for implementation.
                                         Provide a response within 30
                                          days indicating concurrence
                                              or nonconcurrence. If
            2               Unresolved      concurrence is indicated,
                                           provide the target date and
                                         title of the official responsible
                                               for implementation.




                                                                         1
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
